Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 1

i

FILED
United States Court of Appeals
Tenth Circuit
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

March 31, 2021
Christopher M. Wolpert
Clerk of Court

CHESTER LEE RENEAU,
Plaintiff - Appellant,
v.

MARY CARDINAS, in her individual.
capacity; JUDY BRIZENDINE, in her
individual capacity; DOCTOR LOUIS
CABILING, in his individual capacity;
RICK RAEMISCH, Executive Director, in
his individual and official capacities,

No. 20-1220
(D.C.No. 1:17-CV-02595-PAB-SKC)
(D. Colo.)

Defendants - Appellees.

ORDER AND JUDGMENT*

Before PHILLIPS, McHUGH, and CARSON, Circuit Judges.

Chester Lee Reneau, proceeding pro se, appeals from the district court’s grant
of summary judgment to prison nurse Mary Cardinas and prison doctor
Louis Cabiling in his 42 U.S.C. § 1983 civil rights suit.1 Exercising jurisdiction

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
i

Mr. Reneau does not challenge the judgment with regard to other defendants.

/hi

r

•’

Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 2

under 28 U.S.C. § 1291, we affirm the grant of summary judgment to Dr. Cabiling,
but we reverse and remand for further proceedings on Mr. Reneau’s claim against
Nurse Cardinas.
BACKGROUND2
Mr. Reneau is an inmate in the Colorado Department of Corrections. On
Wednesday, March 8, 2017, he slipped while climbing down the ladder from his bunk
bed at Crowley County Correctional Facility. He fell against the metal seat and table
affixed to the wall, injuring his left shoulder, his left leg, and his right wrist. His
wrist was merely bruised, but as it turned out, Mr. Reneau had torn his rotator cuff
and fractured the fibula bone in his leg.
At first, Mr. Reneau did not think he was too injured, and he went to breakfast.
But then he started feeling pain and noticed bruising. Mr. Reneau declared a medical
emergency and reported to the medical clinic, where Nurse Cardinas was on duty.
When the nurse called him into the examination room, he told her about his fall. He
“showed [her] a large bruise with swelling on his left leg, a large bruise with swelling
on his left shoulder, and a bruise on his right wrist.” R. at 42. He “explained to [her]
that his left leg and his left shoulder were in severe pain and that he could not lift his

2 We recite the facts in the light most favorable to Mr. Reneau. See Selfv.
Crum, 439 F.3d 1227, 1230 (10th Cir. 2006). The defendants relied only on
Mr. Reneau’s deposition testimony. As the magistrate judge noted in his report and
recommendation, however, the amended complaint was signed under penalty of
perjury, and thus it also serves as evidence, see Howard v. Waide, 534 F.3d 1227,
1230 n.2 (10th Cir. 2008).
2

A-&

4

Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 3

left arm or move his left foot.” Id. And he said that it felt like something in his
shoulder was injured and something in his leg was broken.
Nurse Cardinas asked Mr. Reneau what he would like her to examine. He
said, “I would like to have my wrist examined, my leg examined, and my shoulder
examined.” Id. at 156. She responded, “Well, it’s not going to work that way,” id.,
which Mr. Reneau understood to mean that she would examine only one injury
during the visit, and she was making him choose which one. Becoming upset,
Mr. Reneau told her that if she did not examine all his injuries, he would file a
§ 1983 suit against her. Instead of examining any of Mr. Reneau’s injuries,
Nurse Cardinas called a security guard and sent Mr. Reneau back to his unit for being
uncooperative.
Mr. Reneau waited a few days to make sure Nurse Cardinas was not on duty,
then returned to the medical unit on two consecutive days, on or about March 12 and
13. During one visit, the nurse(s) then on duty (not party to this litigation) examined
his leg, and during the other, his shoulder. X-rays were requested but not taken until
Wednesday, March 15, because the prison takes X-rays only once a week. When
read on Friday, March 17, the X-rays showed nothing with regard to Mr. Reneau’s
shoulder but confirmed his leg fracture. That same day, his leg was put in a
temporary cast for the weekend.
On Monday, March 20, Mr. Reneau saw Dr. Cabiling for the first time.
Dr. Cabiling replaced the temporary cast with a permanent cast, but he rejected
Mr. Reneau’s request for an MRI of his shoulder, instead sending him for a second
3

h-3

•'

Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 4

set of X-rays. In April or May of 2017, Dr. Cabiling also gave Mr. Reneau a
cortisone shot for his shoulder, which helped him move his arm “a little bit better for
. . . three to four months.” Id. at 169. Mr. Reneau was transferred to a different
prison, out of Dr. Cabiling’s care, in February 2018. In September 2019, an MRI of
his shoulder revealed one definite and one probable tear. A doctor recommended
surgery in February 2020.
Mr. Reneau filed suit under § 1983, alleging Nurse Cardinas and Dr. Cabiling
violated the Eighth Amendment by exhibiting deliberate indifference to his serious
medical needs. After discovery, the defendants moved for summary judgment,
arguing that Mr. Reneau failed (1) to present evidence that Nurse Cardinas knew of
the seriousness of his medical needs, and (2) to show that his claim against
Dr. Cabiling was anything more than a disagreement about the type and course of
medical treatment provided.
The magistrate judge recommended granting the defendants’ motion as to
Dr. Cabiling, stating that Mr. Reneau’s arguments established nothing more than a
disagreement with Dr. Cabiling’s course of treatment. But he recommended denying
the defendants’ motion as to Nurse Cardinas because a reasonable factfinder could
conclude that, having seen Mr. Reneau’s injuries and heard his reports of pain, she
chose to ignore a substantial risk of serious harm by refusing to examine him. Both
sides objected to portions of the report and recommendation.
The district court adopted the recommendation as to Dr. Cabiling. It rejected
the recommendation to allow the case against Nurse Cardinas to proceed, however,
4

ft-4

■*

Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 5

holding that Mr. Reneau had failed to present evidence to show that Nurse Cardinas
actually drew an inference of serious harm.
Mr. Reneau now appeals.
DISCUSSION
I.

Legal Standards
We review the district court’s grant of summary judgment de novo.

See Sealock v. Colorado, 218 F.3d 1205, 1209 (10th Cir. 2000). Summary judgment
is appropriate when “the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). We construe Mr. Reneau’s pro se filings liberally, but we do not act as his
lawyers. See Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991).
In Estelle v. Gamble, the Supreme Court held that prison officials’ “deliberate
indifference to serious medical needs of prisoners constitutes the unnecessary and
wanton infliction of pain proscribed by the Eighth Amendment.” 429 U.S. 97, 104
(1976) (citation and internal quotation marks omitted). An Eighth Amendment
medical-needs inquiry has two prongs, one objective and one subjective. See Farmer
v. Brennan, 511 U.S. 825, 834 (1994). Under the objective prong, the deprivation
must be “sufficiently serious.” Id. (internal quotation marks omitted). And under the
subjective prong, the official must have a “sufficiently culpable state of mind.” Id.
(internal quotation marks omitted).
For purposes of summary judgment, the defendants did not contest whether
Mr. Reneau’s injuries were sufficiently serious to satisfy the objective prong. Thus,
5

Ar-S

•'

Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 6

we need examine only the subjective prong. In prison-conditions cases, the required
“state of mind is one of deliberate indifference to inmate health or safety.” Id.
(internal quotation marks omitted). In this context, a prison official cannot be liable
“unless the official knows of and disregards an excessive risk to inmate health or
safety; the official must both be aware of facts from which the inference could be
drawn that a substantial risk of serious harm exists, and he must also draw the
inference.” Id. at 837.
II.

Claim Against Nurse Cardinas
Mr. Reneau’s claim against Nurse Cardinas arises out of her failure to examine

his injuries on March 8, 2017, thus delaying the necessary treatment (such as X-rays
and casting of his leg) and causing him to suffer unnecessary pain. Mr. Reneau
argues that the district court construed the facts in the light most favorable to
Nurse Cardinas, rather than to Mr. Reneau, and that it erred in requiring him to
present evidence that Nurse Cardinas drew an inference of substantial harm. He
asserts that if she lacked knowledge of his medical needs, it was because she refused '
to examine him.
Nurse Cardinas had a dual role: she was not only a medical provider, but also
the gatekeeper for more advanced medical providers, such as the prison doctor(s).
“A prison medical professional who serves solely as a gatekeeper for other medical
personnel capable of treating the condition may be held liable under the deliberate
indifference standard if she delays or refuses to fulfill that gatekeeper role.” Mata v.
Saiz, 427 F.3d 745, 751 (10th Cir. 2005) (ellipsis and internal quotation marks
6

A"

Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 7

omitted)). “An inmate need not show that a prison official acted or failed to act
believing that harm actually would befall an inmate; it is enough that the official
acted or failed to act despite his knowledge of a substantial risk of serious harm.” Id.
at 752 (internal quotation marks omitted). “Whether a prison official had the
requisite knowledge of a substantial risk is a question of fact subject to demonstration
in the usual ways, including inference from circumstantial evidence, and a factfinder
may conclude that a prison official knew of a substantial risk from the very fact that
the risk was obvious.” Id. (internal quotation marks omitted). “This is so because if
a risk is obvious so that a reasonable man would realize it, we might well infer that
the defendant did in fact realize it.” Id. (brackets and internal quotation marks
omitted).
Viewed in the light most favorable to Mr. Reneau for purposes of summary
judgment, the undisputed facts are that Mr. Reneau told Nurse Cardinas that he had
fallen, showed her bruising and swelling on his leg and shoulder, told her he was in
severe pain and could not lift his left arm or move his left foot, and told her that it
felt like something in his shoulder was injured and something in his leg was broken.
Nurse Cardinas then communicated to him that she would not examine all of his
injuries during the visit and asked him to choose which injury she would examine.3

3 Before the district court, the defendants asserted that Nurse Cardinas asked
which injury she should examine “first.” R. at 142, 146, 332, 335. But the
defendants’ motion for summary judgment relied solely on Mr. Reneau’s testimony,
and Mr. Reneau never testified that Nurse Cardinas asked which injury she should
examine “first.” Rather, he consistently asserted that she declined to examine all his
injuries during the visit, and she directed him to choose which injury she would
7

A-7

• '

Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 8

When he became upset at being denied assessment of all his injuries and told her that
he would file a § 1983 action against her if she did not examine all his injuries, she
called security and had him removed from the medical clinic without examining any
of his injuries. These facts, if believed by a factfinder, sufficiently establish the
subjective prong of the Eighth Amendment.
A prisoner has a constitutional right to medical care for his serious medical
needs. See Estelle, 429 U.S. at 103-04. It follows that if a prisoner suffers multiple
serious injuries, he has a right to medical treatment for each such injury. The facts
recited by Mr. Reneau, if believed, establish that at the outset of the March 8 visit,
Nurse Cardinas refused or declined to examine all of Mr. Reneau’s asserted injuries.
Further, Nurse Cardinas sent him back to his cell without examining him and without
providing so much as an aspirin, despite his complaints of severe pain and the
evident bruising that he showed her. A reasonable factfinder could conclude that she
failed to perform her duties to provide medical attention, to ascertain whether any of
Mr. Reneau’s injuries required more advanced medical care, and to refer him for such
care. See Burke v. Regalado, 935 F.3d 960, 994-95 (10th Cir. 2019) (holding that
evidence established an Eighth Amendment violation where nurse declined to
examine inmate suffering paralysis who later died); Mata, 427 F.3d at 755-56, 758
(reversing summary judgment in favor of nurse who declined to provide any

examine. Before this court, the defendants have elected not to continue their
district-court argument, but instead recognize that “the evidence is undisputed
Ms. Cardinas informed Plaintiff she could only examine one injury.” Aplee. Br. at
17.
8

A-x

•*

Appellate Case: 20-1220

Document: 010110501576

Date Filed; 03/31/2021

Page: 9

treatment to inmate suffering severe chest pain); Sealock, 218 F.3d at 1210-11
(reversing summary judgment in favor of officer who failed to call for medical
assistance when inmate suffered severe chest pains); id. at 1211-12 (reversing
summary judgment in favor of a physician’s assistant, where the evidence left open
the possibility that he was informed of inmate’s chest pain but failed to summon an
ambulance); see also Al-Turki v. Robinson, 762 F.3d 1188, 1194 (10th Cir. 2014)
(noting, in considering qualified immunity, that it is clearly established in this circuit
that “a deliberate indifference claim will arise when a medical professional
completely denies care although presented with recognizable symptoms which
potentially create a medical emergency, . . . and the prison official, knowing that
medical protocol requires referral or minimal diagnostic testing to confirm the
symptoms, sends the inmate back to his cell” (internal quotation marks omitted)).
Nurse Cardinas asserts that “although the evidence in the summary judgment
record may demonstrate [she] was aware of facts to draw the inference that Plaintiff
was injured, . . . there is no evidence in the summary judgment record to suggest
[she] actually drew the inference a substantial risk of harm existed as to Plaintiff and
then disregarded that risk.” Aplee. Br. at 15-16. She notes that before she could
conduct an examination, Mr. Reneau became upset and was escorted out. A
reasonable factfinder, however, could conclude that before their disagreement,
Mr. Reneau presented Nurse Cardinas with sufficient facts to establish that there was
an obvious substantial risk to him of serious injury. When apprised of the underlying
circumstances (a fall off a ladder), and the results (bruising, swelling, severe pain, an
9

A-4

Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 10

inability to move appendages, and a feeling that something in the area was broken or
torn), the possibility of a serious injury would be obvious even to a layperson. From
the circumstantial evidence, a reasonable factfinder therefore could conclude that
Nurse Cardinas actually drew the inference of a substantial risk of serious harm.
See Farmer, 511 U.S. at 842; Mata, 427 F.3d at 752.4
Moreover, Nurse Cardinas cannot rely on her own failure to conduct an
examination to conclusively establish that she did not in fact draw the inference that
Mr. Reneau had suffered serious injuries. See Mata, 427 F.3d at 752 (“An official
would not escape liability if the evidence showed that he merely refused to verify
underlying facts that he strongly suspected to be true, or declined to confirm
inferences of risk that he strongly suspected to exist.” (internal quotation marks
omitted)). And viewing the evidence in Mr. Reneau’s favor, he became upset
because he perceived that Nurse Cardinas was refusing to examine all of his injuries.
It is a reasonable inference that, had she assured him she would in fact examine all
his injuries, the examination would have proceeded without further incident.
In Mata, we stated that “[a] prisoner may satisfy the subjective component by
showing that defendants’ delay in providing medical treatment caused either

4 Of course, “the obviousness of a risk is not conclusive and [Nurse Cardinas]
may show that the obvious escaped [her].” Farmer, 511 U.S. at 843 n.8; see also id.
at 844 (“[I]t remains open to the officials to prove that they were unaware even of an
obvious risk to inmate health or safety. That a trier of fact may infer knowledge from
the obvious, in other words, does not mean that it must do so.”). “[K]ey facts remain
in dispute and nothing we say should be taken as suggesting liability must attach after
they are sorted out at trial.” Blackmon v. Sutton, 734 F.3d 1237, 1246 (10th Cir.
2013).
10

Mb

Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 11

unnecessary pain or a worsening of [his] condition.” Id. at 755. At a minimum,
Mr. Reneau left the clinic on March 8 with a fractured fibula bone, and without any
pain-relieving medication. It is a reasonable inference that he suffered pain from his
broken bone until he received treatment several days later. Further, the prison did
not take X-rays until March 15. As the magistrate judge noted, the record indicates
that the prison takes X-rays once a week. It is a reasonable inference that had
Nurse Cardinas examined Mr. Reneau on the morning of Wednesday, March 8, he
would not have had to wait until Wednesday, March 15, for X-rays and until Friday,
March 17, for a temporary cast.5 It thus is a reasonable inference that
Nurse Cardinas’s failure to examine Mr. Reneau on March 8 caused an unnecessary
delay in treating his fractured fibula.
For these reasons, we reverse the grant of summary judgment to
Nurse Cardinas and remand for further proceedings.
III.

Claim Against Dr. Cabiling
The district court held that Mr. Reneau’s disagreement with Dr. Cabiling’s

course of treatment failed to establish that the doctor was deliberately indifferent to
Mr. Reneau’s medical needs. Mr. Reneau argues that his claim is not merely a
disagreement with Dr. Cabiling’s medical judgment because (1) Dr. Cabiling “chose
to pursue an easier less efficacious course of medical treatment,” which “states a

5 The defendants assert that “[a] temporary cast was put on Plaintiffs leg the
same week as his fall.” Aplee. Br. at 4. That is incorrect. The undisputed facts are
that Mr. Reneau was injured on Wednesday, March 8, and the temporary cast was
applied nine days later on Friday, March 17.
11

A- II

Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 12

valid Eighth Amendment claim,” Aplt. Opening Br. at 12; (2) Dr. Cabiling’s response
was not a reasonable treatment for a torn rotator cuff; and (3) Dr. Cabiling denied
him access to an orthopedic specialist capable of evaluating the need for surgery.
It is well-established that “a prisoner who merely disagrees with a diagnosis or
a prescribed course of treatment does not state a constitutional violation, absent
evidence the prison official knew about and disregarded a substantial risk of harm to
the prisoner’s health or safety.” Selfv. Crum, 439 F.3d 1227, 1231 (10th Cir. 2006)
(brackets, citation, and internal quotation marks omitted). “Where the necessity for
treatment would not be obvious to a lay person, the medical judgment of the
physician, even if grossly negligent, is not subject to second-guessing in the guise of
an Eighth Amendment claim.” Mata, 427 F.3d at 751; see also Estelle, 429 U.S. at
106 (“Medical malpractice does not become a constitutional violation merely because
the victim is a prisoner.”). As, particularly relevant here, “the question whether an •
X-ray or additional diagnostic techniques or forms of treatment is indicated is a
classic example of a matter for medical judgment. A medical decision not to order an
X-ray, or like measures, does not represent cruel and unusual punishment.” Estelle,
429 U.S. at 107; see alsoLedouxv. Davies, 961 F.2d 1536, 1537 (10th Cir. 1992)
(noting that types of medication prescribed and referrals to specialists are generally
matters of medical judgment).
It is correct that “[i]f a prison doctor . . . responds to an obvious risk with
treatment that is patently unreasonable, a jury may infer conscious disregard.” Self,
439 F.3d at 1232. But this type of “claim is . . . actionable only in cases where the
12

Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 13

need for additional treatment or referral to a medical specialist is obvious,” such as
when a medical professional (1) “recognizes an inability to treat the patient due to the
seriousness of the condition and his corresponding lack of expertise but nevertheless
declines or unnecessarily delays referral”; (2) “fails to treat a medical condition so
obvious that even a layman would recognize the condition”; or (3) “completely
denies care although presented with recognizable symptoms which potentially create
a medical emergency.” Id. The record does not establish that any of these situations
occurred here.
The^rec^fdjcohtains nojevidence thatDr; Cabiling-was-uhableToTfeat
*Mr..;ReneauIs-sKotrlder_or thartfre injufyTto~his shoulder was -sd-bbXd:o.u.sjthat-ev-enya»
^ymamw.ould-recognize^a:rotator-cuff'teafv. MoreoTer,;Dr.‘CabilingJpro_vided^sorhe'
itfeatmen?, which gave Mr. Reneau some relief from pain for a matter of months.
And the record contains no evidence to support Mr. Reneau’s assertions that
Dr. Cabiling’s course of action was dictated solely by cost considerations or that his
treatment was patently unreasonable in the circumstances. See id. at 1235
(“Summary judgment requires more than mere speculation. It requires some
evidence, either direct or circumstantial, that [the practitioner] knew about and
consciously disregarded the risk.”).
For these reasons, we affirm the grant of summary judgment to Dr. Cabiling.
CONCLUSION
Mr. Reneau’s motion to proceed without prepayment of costs and fees is
granted. The district court’s grant of summary judgment to Nurse Cardinas is
13

M3

•* *

' * Appellate Case: 20-1220

Document: 010110501576

Date Filed: 03/31/2021

Page: 14

reversed and remanded for further proceedings. The remainder of the judgment is
affirmed.
Entered for the Court

Gregory A. Phillips
Circuit Judge

14

*

PETITIONER'S
APPENDIX
B

■

«

Table of Contents
This is Petitioner’s Appendix B which consists of the Order of the United States
District Court for the District of Colorado. The highlighted portions of pages 11 and 12
contain the basis of the erroneous ruling of the U.S. District Court.

i

i
i
i

i

:J

•

\ Case l:17-cv-02595-PAB-SKC Document 167 Filed 05/29/20 USDC Colorado Page 1 of 14

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Philip A. Brimmer

!

Civil Action No. 17-CV-02595-PAB-SKC
CHESTER LEE RENEAU
!
I

Plaintiff,

v.
MARY CARDINAS, in her individual capacity,
JUDY BRIZENDINE, in her individual capacity, and
DOCTOR LUIS CABILING, in his individual capacity;
Defendants.
i

ORDER
>

‘

This matter is before the Court on the Report and Recommendation Re: Motions
for Summary Judgment [#114; #117] [Docket No. 143]. Defendants filed their
objections to the magistrate judge's recommendation on March 23, 2020. Docket No.
144. Plaintiff filed objections on March 24, 2020. Docket No. 145. The Court has
jurisdiction pursuant to 28 U.S.C. § 1331.
I. BACKGROUND 1
On March 8, 2017, plaintiff, an inmate who was incarcerated at Crowley County
Correction Facility (“CCCF”), a Colorado Department of Corrections-contracted facility,
slipped and fell in his cell. Docket No. 114 at 1-2,

1-2. Plaintiff did not immediately

realize the extent of his injuries and proceeded to breakfast. Id. at 2-3,

1

The following facts are undisputed unless otherwise indicated.

3H

3-4. On his

■

i

;.. Case l:17-cv-02595-PAB-SKC Document 167 Filed 05/29/20 USDC Colorado Page 2 of 14

way back from breakfast, plaintiff's leg stiffened and he noticed bruises on his left leg
and shoulder. Id. at 3, ^ 5. Plaintiff requested to be sent to medical, where Nurse Mary
Cardinas was tasked with evaluating him. Id.,

7.

Ms. Cardinas asked plaintiff what plaintiff wanted her to examine, to which
plaintiff responded that he needed both his shoulder and leg examined.2 Id., If 8. Ms.
Cardinas said something to the effect that she would not or could not examine both
plaintiff’s leg and shoulder at the same time on the same day. id:, Docket No. 119 at 9.
Plaintiff then threatened Ms. Cardinas with legal action if she did not examine both of
his complained of injuries. Docket No. 114 at 3,

8. A heated argument ensued and,

because plaintiff has a history of being volatile when he feels disrespected, security
escorted plaintiff out of the medical unit. Id.,

9; see also Docket No. 114-1 at 8 ("I

have this history of being volatile toward people who are real disrespectful and causing
me a lot of harm.”); Docket No. 151 at 1 (“Any reasonable person would have gotten
angry and wanted to hit Ms. Cardinas for refusing them medical treatment for their
fractured leg and torn rotator cuff.”). Plaintiff was not examined by Ms. Cardinas or any
other medical professional that day. Docket No. 114 at 3,

10.

On two separate days in mid-March, nurses on duty examined plaintiffs leg and
shoulder. Id., tf 12; see also Docket No. 119 at 16 (stating that it was March 13 and
March 14, not March 12 and March 13, when nurses examined plaintiff). X-rays, which
are only conducted once a week at CCCF, were ordered for both plaintiffs left leg and

2 The exact phrasing of this conversation is disputed. See Docket No. 119 at 9.
The substance, however, is not.
2

i j

.

i

; ■ Case l:17-cv-02595-PAB-SKC Document 167 Filed 05/29/20 USDC Colorado Page 3 of 14

shoulder. Docket No. 114 at 4,

13-14. A temporary cast was put on plaintiffs leg

the same week as his fall. Id., U 15. The following Monday, Dr. Luis Cabiling put a
permanent cast on plaintiffs leg. Id., U 17. During this appointment, plaintiff requested
that Dr. Cabiling order an MRI for plaintiffs shoulder. Id., U 18. Dr. Cabiling refused to
order an MRI. Id. Dr. Cabiling did, however, give plaintiff a cortisone shot on at least
one occasion. Id. at 5,

23; see also Docket No. 119 at 18-19.

Plaintiff filed a grievance, which was reviewed by Judy Brizendine, the Health
Services Administrator for CCCF, to complain about the treatment he received from Ms.
Cardinas and Dr. Cabiling. Docket No. 119 at 1-2; Docket No. 114 at 5,

25. Although

plaintiff met in person with Ms. Brizendine in regards to his grievance, she did not
examine plaintiff. Docket No. 114 at 5,

25; Docket No. 119 at 1-2.

Plaintiff filed this lawsuit on October 30, 2017. See Docket No. 1. Plaintiff
brings claims pursuant to 42 U.S.C. § 1983 for deliberate indifference to his medical
needs against all defendants. Docket No. 12 at 8-13.
Defendants filed a motion for summary judgment on August 1,2019 arguing that
(1) there is no evidence that Ms. Cardinas disregarded any medical needs, (2) that
plaintiffs claim against Dr. Cabiling fails because Dr. Cabiling’s refusal to order an MRI
is a disagreement on the type and course of medical treatment, and (3) Ms. Brizendine
could not have disregarded plaintiffs medical needs because she never examined
plaintiff. See Docket No. 114 at 5-9.
Plaintiff filed a motion for summary judgment on August 5, 2019. See Docket
No. 117. Plaintiff argues that he is entitled to summary judgment against all defendants
3

8-3
l

•, Case l:17-cv-02595-PAB-SKC Document 167 Filed 05/29/20 USDC Colorado Page 4 of 14

because each disregarded a risk to his medical needs by failing to properly examine,
treat, and diagnose his injuries. Id. at 3-8.
The Court referred both motions to Magistrate Judge Kato Crews. See Docket
Nos. 115,118, Magistrate Judge Crews issued his recommendation on March 9, 2020.
See Docket No. 143. Magistrate Judge Crews recommends denying plaintiff’s motion
in its entirety, granting defendants’ motion as to Dr. Cabiling and Ms. Brizendine, and
denying defendants' motion as to Ms. Cardinas. Id. at 12,14, 16-17. Defendants filed
objections to the magistrate judge’s recommendation on March 23, 2020. Docket No.
144. Plaintiff filed objections on March 24, 2020. Docket No. 145.
II. LEGAL STANDARD
The Court must “determine de novo any part of the magistrate judge’s
disposition that has been properly objected to." Fed. R. Civ. P. 72(b)(3). An objection
is “proper” if it is both timely and specific. United States v. One Parcel of Real Prop.
Known as 2121 E. 30th St, 73 F.3d 1057, 1059 (10th Cir. 1996). A specific objection
“enables the district judge to focus attention on those issues - factual and legal - that
are at the heart of the parties’ dispute.” Id.
In the absence of an objection, the district court may review a magistrate judge’s
recommendation under any standard it deems appropriate. See Summers v. Utah, 927
F,2d 1165, 1167 (10th Cir. 1991); see also Thomas v. Arn, 474 U.S. 140, 150 (1985)
(“It does not appear that Congress intended to require district court review of a
magistrate’s factual or legal conclusions, under a de novo or any other standard, when
neither party objects to those findings.”). The Court therefore reviews the non-objected
4

B-4

• *

Case l:17-cv-02595-PAB-SKC Document 167 Filed 05/29/20 USDC Colorado Page 5 of 14

to portions of the recommendation to confirm that there is “no clear error on the face of
the record.” Fed. R. Civ. P. 72(b), Advisory Committee Notes. This standard of review
is something less than a "clearly erroneous or contrary to law” standard of review, Fed.
R. Civ. P. 72(a), which in turn is less than a de novo review. Fed. R. Civ. P. 72(b).
Because plaintiff is proceeding pro se, the Court will construe his objections and
pleadings liberally without serving as his advocate. See Hall v. Bellmon, 935 F.2d

1106, 1110 (10th Cir. 1991).
Summary judgment is warranted under Federal Rule of Civil Procedure 56 when
the “movant shows that there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a); see Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248-50 (1986). A disputed fact is “material” if,
under the relevant substantive law, it is essential to proper disposition of the claim.
Wrightv. Abbott Labs., Inc., 259 F.3d 1226, 1231-32 (10th Cir. 2001). Only disputes
over material facts can create a genuine issue for trial and preclude summary
judgment. Faustin v. City & Cty. of Denver, 423 F.3d 1192, 1198 (10th Cir. 2005). An
issue is “genuine” if the evidence is such that it might lead a reasonable jury to return a
verdict for the nonmoving party. Allen v. Muskogee, 119 F.3d 837, 839 (10th Cir.

1997).
Where “the moving party does not bear the ultimate burden of persuasion at
trial, it may satisfy its burden at the summary judgment stage by identifying a lack of
evidence for the nonmovant on an essential element of the nonmovant’s claim.”
Bausman v. Interstate Brands Corp., 252 F.3d 1111, 1115 (10th Cir. 2001) (quotations
5

B"5

•. • Case l:17-cv-02595-PAB-SKC Document 167 Filed 05/29/20 USDC Colorado Page 6 of 14

omitted). “Once the moving party meets this burden, the burden shifts to the
nonmoving party to demonstrate a genuine issue for trial on a material matter.”
Concrete Works of Colo., Inc. v. City & Cty. of Denver, 36 F.3d 1513, 1518 (10th Cir.
1994). The nonmoving party may not rest solely on the allegations in the pleadings,
but instead must designate “specific facts showing that there is a genuine issue for
trial.” Celotex Corp. v. Catrett, 477 U.S. 317, 324 (1986) (quotations omitted). “To
avoid summary judgment, the nonmovant must establish, at a minimum, an inference of
the presence of each element essential to the case.” Bausman, 252 F.3d at 1115.
When reviewing a motion for summary judgment, a court must view the evidence in the
light most favorable to the non-moving party. Id.
III. ANALYSIS
Plaintiff’s claims against each defendant are for violation of plaintiffs right under
the Eighth Amendment to be free from deliberate indifference to his known medical
needs. Docket No. 12 at 8-13. Plaintiff brings these claim pursuant to § 1983. Id.
A claim for deliberate indifference to serious medical needs has an objective and
a subjective component. The objective component requires that the medical need be
“sufficiently serious.” Sealockv. Colorado, 218 F.3d 1205, 1209 (10th Cir. 2000). The
subjective component requires that “a prison official knows of and disregards an
excessive risk to inmate health or safety." Id. (citation and quotations omitted). Only
the subjective component is at issue here. See Docket No. 114 at 8 (“Defendants
concede [pjlaintiffs injuries constitute a sufficiently serious medical condition.”).
A. MaryCardinas
6

B'<o

•\ Case l:17-cv-02595-PAB-SKC Document 167 Filed 05/29/20 USDC Colorado Page 9 of 14

Spencer v. Abbott, 731 F. App’x 731 (10th Cir. 2017) (unpublished), is
instructive. There, the Tenth Circuit analyzed and addressed three cases where the
defendant had a “front-row seat” to the substantial risks to the plaintiff. Id. First, Abbott
analyzed Oxendine v. Kaplan, 241 F. 3d 1272 (10th Cir. 2001), where, after a doctor
reattached the plaintiff’s severed finger, the doctor ignored that the plaintiffs finger had
turned “jet black,” the reattached portion had begun to fall off, and the doctor noted
“necrosis” on the reattached finger, “but took no action.” Abbott, 731 F. App’x at 74243 (citing Oxendine, 241 F.3d at 1277-79).
Next, the Tenth Circuit looked to Blackmon v. Sutton, 734 F.3d 1237 (10th Cir.
2013), where prison officials knew of an eleven-year-old detainee’s mental health
issues and strapped him to a chair even though the officials knew such action "offered
no help” and continued to deny him access to mental health treatment. Abbott, 731 F.
App’x at 743 (citing Blackmon, 734 F.3d at 1244-46).
Finally, the court analyzed Estate of Booker v. Gomez, 745 F.3d 405 (10th Cir.
2014), where officers put an arrestee in a “carotid restraint" for three minutes, even
though training materials warned that brain damage or death could occur if used for
more than one minute. Abbott, 731 F. App’x at 743 (citing Gomez, 745 F.3d at 413-15).
The officers carried the arrestee to a cell, placed him on the floor, and never checked
his vitals. Id. The arrestee died in custody. Id.
The Tenth Circuit reasoned that, in these three cases, the substantial risks of
serious harm “were remarkably obvious” and the defendant in each of them had a
“front-row seat to observe” them. Id. at 744 (citations and quotations omitted). The

9

. *.

*. Case l:17-cv-02595-PAB-SKC Document 167 Filed 05/29/20 USDC Colorado Page 10 of 14

court contrasted these cases to the facts in Abbott, there, a medical professional
witnessed the defendant struggling to walk and the plaintiff “visually presented” to the
defendant a prominent spasm in the plaintiff’s upper back. Id. The defendant pressed
on a trigger point, which provided immediate relief to the plaintiff. Id. As a result, the
defendant diagnosed the plaintiff with muscle spasms, even though later that day the
plaintiff suffered a severe stroke. Id.
The Tenth Circuit concluded that these facts were not enough to demonstrate
that the defendant knew of a substantial risk and drew the inference of that risk. Rather
than the plaintiffs “condition continuing to decline before” the defendant’s eyes, like in
Oxendine, Blackmon, and Gomez, the defendant provided the plaintiff with immediate
relief, which led the defendant to believe that the plaintiff was fine and only suffering
from muscle spasms. Id.
Abbott and its analysis of Oxendine, Blackmon, and Gomez demonstrate that, on
the facts here, more than bruises and plaintiffs opinion are needed to demonstrate that
Ms. Cardinas in fact drew an inference of a substantial risk of serious harm. Ms.
Cardinas saw bruising, listened to plaintiff’s explanation of his injuries, and prepared to
examine him. She did not ignore any “remarkably obvious’’ risks of serious harm to
plaintiff that would demonstrate that she in fact drew an inference regarding the
seriousness of plaintiffs injuries. See id.
The Court therefore agrees with defendants that summary judgment is
appropriate as to plaintiff’s claim against Ms. Cardinas.
B. Luis Cabiling

10

B-lo

*. Case l:17-cv-02595-PAB-SKC Document 167 Filed 05/29/20 USDC Colorado Page 11 of 14

Magistrate Judge Crews recommends that the Court grant defendants’ motion
for summary judgment against Dr. Cabiling because Dr. Cabiling’s decision not to give
plaintiff an MRI was a medical decision and plaintiff’s disagreement with that decision
does not rise to the level of deliberate indifference. Docket No. 143 at 12-13.
Plaintiff objects to this conclusion, arguing that Dr. Cabiling is a general
practitioner, making him unqualified to diagnose plaintiffs shoulder injury and,
therefore, Dr. Cabiling should have referred plaintiff to an orthopedic specialist. Docket
No. 145 at 9-11.
The Court agrees that Dr. Cabiling is entitled to summary judgment. Sr~^t5iling
prd^ed'two-x-rays-and-providedrpL^intiff^A/itlTwtilghe^h^tsmat'JeastPlT^occas'o^
Plaintiffs sole complaint is that Dr. Cabiling did not order an MRI and, thus, did not
diagnose a rotor cuff injury soon enough. But a disagreement on when or whether to
order a diagnostic test, or a disagreement on the course of treatment, does not
demonstrate that Dr. Cabiling was deliberately indifferent to plaintiffs medical needs.
Whether a medical professional orders additional diagnostic techniques is a “classic
example of a matter for medical judgment,” and, as a result, a decision not to order a
diagnostic test is “[a]t most... medical malpractice.” Estelle v. Gamble, 429 U.S. 97,
107 (1976). Additionally, “an inference of deliberate indifference cannot be drawn
simply because the prisoner ‘disagrees with a diagnosis or a prescribed course of
treatment.”’ Mathison v. Wilson, 719 F. App’x 806, 809 (10th Cir. 2017) (unpublished)
(quoting Perkins v. Kan. Dep’tofCorr., 165 F.3d 803, 811 (10th Cir. 1999)).
Flainiiff’s^aTgumentTF^fDr.^CabilTn^is a-generalist:affd-ther_efore--shpuJd=have

11

Hi

Case l:17-cv-02595-PAB-SKC Document 167 Filed 05/29/20 USDC Colorado Page 12 of 14

^

fop,

r^fe;n^:p¥intifRo-^pecialistasjjnpersualive; First, plaintiff’s reliance on Kikumura v.
Osagie, 461 F.3d 1269, 1295 (10th Cir. 2006), overruling recognized by Rachel v.
Troutt, 764 F. App'x 778 (10th Cir. 2019), is misplaced. Kikumura reviewed a motion to
dismiss, not a motion for summary judgment and, as a result, was only reviewing the
allegations contained in the complaint, not evidence adduced at the summary judgment
stage. Moreover, the standard that the Tenth Circuit utilized in that case is outdated;
the standard asked whether a plaintiff can prove “no set of facts” in support of the
allegations. See Robbins v. Oklahoma, 519 F.3d 1242, 1246 (10th Cir. 2008) (noting
that the “no set of facts” test as used in Kikumura and other cases was overruled by the
Supreme Court). Even so, Kikumura does not support plaintiffs argument. There, the
plaintiff alleged that the defendant knew of the extent of plaintiffs injuries and
purposefully failed to do a thorough examination because the defendant would then
know that the plaintiff was injured. See Kikumura, 461 F.3d at 1295. The evidence in
this case, and plaintiffs only allegation, is that Dr. Cabiling did not order an MRI when
plaintiff requested one. Moreover, Dr. Cabiling ordered a second x-ray and provided a
cortisone shot to treat plaintiff. Therefore, unlike Kikumura, there is no evidence that
Dr. Cabiling refused to order an MRI solely to avoid a proper diagnosis.
Plaintiffs reliance on Mata v. Saiz, 427 F.3d 745 (10th Cir. 2005), and Ginest v.
Bd. ofCty. Comm’rs, 333 F. Supp. 2d 1190 (D. Wyo. 2004), is also unavailing. In
Mata, one of the defendant’s “refused to provide ... any medical attention.” 427 F.3d
at 756. The Tenth Circuit reasoned that this refusal resulted in the defendant failing “to
perform her gatekeeping role in potential cardiac emergency by not seeking a medical

12

B-ia

. *,

\ Case l:17-cv-02595-PAB-SKC Document 167 Filed 05/29/20 USDC Colorado Page 13 of 14

evaluation.” Id. Here, the evidence shows that Dr. Cabiling did evaluate plaintiff, but
disagreed on the type and course of treatment. Thus, Maiz does not support plaintiffs
contention. Additionally, Ginest dealt with systematic deficiencies in maintaining
medical records, not a failure to order further diagnostic testing. 333 F. Supp. 2d at
1205-06. As a result, Ginest does not change the result here.
C. Judy Brizendine
There are no objections to the magistrate judges’s recommendation as to the
actions of Ms. Brizendine. The Court has reviewed the non-objected portions of the
recommendation to satisfy itself that there is “no clear error on the face of the record.”
Fed. R. Civ. P. 72(b), Advisory Committee Notes. Based on this review, the Court has
concluded that this portion of the recommendation is a correct application of the facts
and the law.
D. Plaintiff’s Motion for Summary Judgment
Neither party objects to the magistrate judge’s recommendation as to plaintiff’s
motion for summary judgment. The Court has reviewed the non-objected portions of
the recommendation to satisfy itself that there is “no clear error on the face of the
record.” Fed. R. Civ. P. 72(b), Advisory Committee Notes. Based on this review, the
Court has concluded that this portion of the recommendation is a correct application of
the facts and the law.
IV. CONCLUSION
It is therefore
ORDERED that the Recommendation of United States Magistrate Judge [Docket

13

M3

* *»•

% Case l:17-cv-02595-PAB-SKC Document 167 Filed 05/29/20 USDC Colorado Page 14 of 14

No. 143] is accepted in part and rejected in part. It is further
ORDERED that Defendants' Motion for Summary Judgment [Docket No. 114] is
GRANTED. It is further
ORDERED that Plaintiffs Motion for Summary Judgment [Docket No. 117] is
DENIED. It is further
ORDERED that this case shall remain open for the limited purpose of ruling on
the outstanding Motion for Sanctions [Docket No. 150].

DATED May 29, 2020.
BY THE COURT:
..

PHILIP A. BRIMMER
Chief United States District Judge

14

B-i4

'?

!

PETITIONER’S
APPENDIX
C

Table of Contents
This is Petitioner's Appendix AC
only content is the Oder of the United States
Court of Appeals denying the petitioner's request for rehearing.

J

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

April 20, 2021
Christopher M. Wolpert
Clerk of Court

CHESTER LEE RENEAU,
Plaintiff - Appellant,

No. 20-1220
(D.C.No. 1:17-CV-02595-PAB-SKC)
(D. Colo.)

v.
MARY CARDINAS, in her individual
capacity, et al.,
Defendants - Appellees.

ORDER

Before PHILLIPS, McHUGH, and CARSON, Circuit Judges.

Appellant's petition for rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

t'l

. . -.

CERTIFICATE OF COMPLIANCE
No.
CHESTER LEE RENEAU,
Petitioner,
v.
DOCTOR LOUIS CABILING,
Respondent.
As required by Supreme Court Rule 33.1 (h), I certify that the petition for a writ of
certiorari contains 5,364 words, excluding the parts of the petition that are exempted by
Supreme Court Rule 33.1 (d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 22, 2021

i

